SUPREME COURT OF THE UNITED STATES
BEATRICE MUNYENYEZI
Petitioner
v.
UNITED STATES OF AMERICA
Respondent

APPENDIX
Table of Contents
Decision of the United States District Court, District of New Hampshire …………1
Decision of the United States Court of Appeals for the First Circuit………………21

Case 1:16-cv-00402-SM Document 28 Filed 10/10/19 Page 1 of 20

UNITED STATES DISTRICT COURT
DISTRICT OF NEW HAMPSHIRE

Beatrice Munyenyezi,
Petitioner
v.

Case No. 16-cv-402-SM
Opinion No. 2019 DNH 178

United States of America,
Respondent

O R D E R

In 2010, a grand jury charged Beatrice Munyenyezi with
having unlawfully procured citizenship or naturalization, in
violation of 18 U.S.C. § 1425(a) (Count One) and 1425(b) (Count
Two).
counts.

In February of 2013, a petit jury convicted her on both
She was sentenced to concurrent terms of imprisonment

of 120 months and, pursuant to 8 U.S.C. § 1451(e), the court
revoked her citizenship.

Munyenyezi’s convictions and sentence

were affirmed on appeal.

United States v. Munyenyezi, 781 F.3d

532 (1st Cir. 2015).

Subsequently, Munyenyezi filed a petition seeking habeas
corpus relief, pursuant to 28 U.S.C. § 2255.

In it, she

asserted that defense counsel provided constitutionally
deficient representation; the government failed to disclose
exculpatory material prior to trial; and she was entitled to

Appendix Page 1

Case 1:16-cv-00402-SM Document 28 Filed 10/10/19 Page 2 of 20

sentence relief under Johnson v. United States, 135 S. Ct. 2551
(2015).

Then, after the Supreme Court issued its opinion in

Maslenjak v. United States, 137 S. Ct. 1918 (2017), Munyenyezi
amended her petition to allege an additional ground for habeas
relief: that the jury had been improperly instructed on the
element of “materiality.”

The court denied Munyenyezi’s habeas

petition, concluding that she was not denied effective
assistance of counsel, and neither her Brady claim nor her
Johnson claim had merit.

It did not specifically discuss her

Maslenjak claim regarding the allegedly defective jury
instructions on materiality.

Munyenyezi sought, and obtained, a certificate of
appealability as to one issue: whether “the jury was given
inaccurate instructions on her criminal liability” under
Maslenjak.

The court of appeals vacated the judgment denying

Munyenyezi’s habeas petition and remanded the matter so this
court might “address petitioner’s Maslenjak claim in the first
instance.”

Judgment of the Court of Appeals (document no. 19)

at 1.

For the reasons discussed, the court concludes that
Munyenyezi is not entitled to habeas relief on the grounds
asserted and, therefore, her petition is denied.

Appendix Page 2

Case 1:16-cv-00402-SM Document 28 Filed 10/10/19 Page 3 of 20

Discussion
I.

Background.
Beatrice Munyenyezi is a Hutu from Rwanda.

The factual

background describing her involvement in the 1994 Rwandan
genocide - during which Hutus murdered hundreds of thousands of
Tutsis - is set forth in the court of appeals’ decision.
United States v. Munyenyezi, 781 F.3d 532 (2015).

See

By way of

background, the court observed that:

Over the course of 100 days, roving bands of Hutus
(Rwanda’s majority ethnic group) slaughtered hundreds
of thousands of their countrymen, most of them Tutsis
(a minority group long-dominant in Rwanda). Some of
the crazed killers belonged to the Interahamwe, the
dreaded militia of a Hutu political party known by the
initials, MRND. About 7,000 Rwandans died each day,
often butchered by machete-wielding Interahamwes at
roadblocks set up to catch fleeing Tutsis. And these
killers didn’t just kill - they raped, tortured, and
disfigured too.

Id. at 535.

The evidence at trial overwhelmingly established,

beyond any reasonable doubt, that Munyenyezi was associated with
the National Republican Movement for Democracy and Development,
also known as the “MRND,” and that she oversaw one of the
infamous roadblocks at which so many Tutsi’s were murdered.
noted by the court of appeals,

[Vestine Nyiraminani] testified that in April 1994 she
and her sister got stopped at the roadblock near the
Hotel Ihuriro. . . . Seeing that their cards
identified them as Tutsis, Munyenyezi ordered them to

Appendix Page 3

As

Case 1:16-cv-00402-SM Document 28 Filed 10/10/19 Page 4 of 20

sit at the side of the road with other Tutsis. A half
hour later, soldiers marched them into the woods. One
of the thugs then plunged a knife into Nyiraminani’s
sister’s head. Nyiraminani escaped. But she never
saw her sister again.
Jean Paul Rutaganda testified about a time in April
1994 when (as a 15 year old) he and some other Tutsis
hid at an Episcopal school near the Hotel Ihuriro.
Rutaganda spotted Munyenyezi (he knew her by name) at
the roadblock with Interahamwes, wearing an MRND
uniform, asking for identity cards, and writing in a
notebook. “She was counting,” Rutaganda said,
“registering dead Tutsis and others who were not yet
dead.” Tutsis, he added, “were killed day and night”
in the nearby forest - something he knew from the
“screaming” and the “crying.”
Tutsi Consolee Mukeshimana also saw Munyenyezi around
this time. Mukeshimana had seen her before (at
Mukeshimana’s sister’s house). And at the roadblock
Mukeshimana watched a fatigues-wearing Munyenyezi
check IDs and lead Tutsis to other “Interahamwe so
they could get killed.”
Desperate to leave Butare because of the killing,
Tutsi Vincent Sibomana tried to run but got detained
at the roadblock. Munyenyezi asked for an ID. He
knew who she was because he had seen her buy beer at a
store where he had worked. And he had also seen an
MRND-shirt-wearing Munyenyezi walking around Butare.
Anyhow, Sibomana was too young to have an ID card,
apparently (he was only 14). An irate Interahamwe hit
his head with a rifle butt. And he fell into a ditch.
More Tutsis were there. “Beatrice” - to quote
Sibomana’s testimony - then told the other
Interahamwes to “kill” them all. Sibomana bolted.
But he saw and heard Tutsis “being killed,” hacked by
“machetes” and bludgeoned with “clubs.”

Id. at 537.

See also Id. at 538 (“[D]ressed as an Interahamwe,

she personally inspected IDs at the checkpoint, separated those

Appendix Page 4

Case 1:16-cv-00402-SM Document 28 Filed 10/10/19 Page 5 of 20

who would live from those who would die (and die gruesomely),
and kept records of the ghastly going-ons.”).

It was also established at trial - again, beyond any
reasonable doubt - that Munyenyezi lied (repeatedly) on various
documents that she submitted in support of her application for
entry into the country as a refugee, including the “Rwandan
Questionnaire” 1 for visa applicants, her application for
permanent residence, and, most importantly for present purposes,
her application for naturalization.

The government also

established that Munyenyezi lied to immigration officials to
conceal her participation, both directly and as an aider and
abettor, in kidnapping, false imprisonment, rape, and murder all in connection with the 1994 Rwandan genocide.

At issue is Munyenyezi’s conviction on Count One of the
indictment, which charged her with having knowingly procured her
naturalization contrary to law - that is, by knowingly providing
false information as to material facts in her Application for
Naturalization, Form N-400 – in violation of 18 U.S.C. §

1

In the wake of the genocide, United States immigration
officials prepared (and employed) the so-called “Rwandan
Questionnaire” in an effort to help determine which visa and
refugee applicants may have participated in the genocide. See
generally Testimony of Donald Heflin, Trial Transcript, Day 6
(document no. 285) at 7-18.

Appendix Page 5

Case 1:16-cv-00402-SM Document 28 Filed 10/10/19 Page 6 of 20

1425(a).

In her amended petition seeking habeas corpus relief,

Munyenyezi asserts that the jury was improperly instructed on
the definition of “material” and, therefore, her conviction on
Count One must be overturned and a new trial ordered.

See

Amended Petition (document no. 11) at 3. 2

II.

Maslenjak, Section 1425(a), and “Materiality”
Like Beatrice Munyenyezi, Divna Maslenjak was convicted of

having procured her naturalization contrary to law, in violation
of 18 U.S.C. § 1425(a) - that is, by having provided false
statements to immigration authorities, in violation of 18 U.S.C.
§ 1001.

At Maslenjak’s trial, the trial judge instructed the

jury that conviction was proper so long as the government
“proved that one of the defendant’s statements was false - even
if the statement was not ‘material’ and ‘did not influence the
decision to approve her naturalization.’”

2

Maslenjak, 137 S. Ct.

The government asserts that Munyenyezi’s conviction on
Count Two of the indictment - that is, having unlawfully
obtained naturalization in violation of 18 U.S.C. § 1425(b) - is
not implicated by the Maslenjak decision. Munyenyezi disagrees,
asserting that it is possible that the jury convicted her on
Count Two based upon her materially false statements to
immigration authorities (and not because she otherwise lacked
“good moral character”). Consequently, she says the jury should
have been instructed on Maslenjak’s “causality” element of
materiality. Even assuming Munyenyezi’s conviction on Count Two
is implicated by Maslenjak, it does not alter the court’s
analysis or its conclusion that any error in the jury
instructions under the later-decided Maslenjak case was harmless
beyond a reasonable doubt.

Appendix Page 6

Case 1:16-cv-00402-SM Document 28 Filed 10/10/19 Page 7 of 20

at 1924.

On appeal, the Supreme Court considered a fairly

simple and straightforward question: whether “a naturalized
American citizen can be stripped of her citizenship in a
criminal proceeding based on an immaterial false statement.”
Id. at 1932 (Alito, J. concurring) (quoting Petition for
Certiorari).

Unsurprisingly, the Court answered that question in the
negative.

To obtain a conviction under section 1425(a) based

upon a false statement, the government must prove the false
statement to immigration authorities was “material.”

But, in so

doing, the Court arguably created a more demanding definition of
“materiality” than had previously been thought to apply.

Before Maslenjak, the Court had explained that, “It has
never been the test of materiality that the misrepresentation or
concealment would more likely than not have produced an
erroneous decision, or even that it would more likely than not
have triggered an investigation.”

Kungys v. United States, 485

U.S. 759, 771 (1988) (emphasis in original).

Accordingly the

Court held that:

We think it safer in the naturalization context, as
elsewhere, to fix as our guide the central object of
the inquiry: whether the misrepresentation or
concealment was predictably capable of affecting,

Appendix Page 7

Case 1:16-cv-00402-SM Document 28 Filed 10/10/19 Page 8 of 20

i.e., had a natural tendency to affect, the official
decision. The official decision in question, of
course, is whether the applicant meets the
requirements for citizenship, so that the test more
specifically is whether the misrepresentation or
concealment had a natural tendency to produce the
conclusion that the applicant was qualified.
* * *
We hold, therefore, that the test of whether Kungys’
concealments or misrepresentations were material is
whether they had a natural tendency to influence the
decisions of the Immigration and Naturalization
Service.

Kungys, 485 U.S. at 771-72 (emphasis supplied).

The Maslenjak Court did not expressly overrule, or even
question, the opinion in Kungys.

Indeed, in explaining the

“materiality” requirement of section 1425(a), the Court
repeatedly relied upon the Kungys opinion (and the concurring
opinions of various justices who agreed with the outcome of
Kungys).

And, yet, the two opinions are difficult to reconcile.

Under Maslenjak, a false statement is “material” only if (1) it
concealed a fact that was so significant that it would have
immediately disqualified the applicant for naturalization, or
(2) the misrepresented fact:

was sufficiently relevant to one or another
naturalization criterion that it would have prompted
reasonable officials, seeking only evidence concerning
citizenship qualifications, to undertake further
investigation. If that much is true, the inquiry

Appendix Page 8

Case 1:16-cv-00402-SM Document 28 Filed 10/10/19 Page 9 of 20

turns to the prospect that such an investigation would
have borne disqualifying fruit. As to that second
link in the causal chain, the Government need not show
definitively that its investigation would have
unearthed a disqualifying fact (though, of course, it
may). Rather, the Government need only establish that
the investigation “would predictably have disclosed”
some legal disqualification.

Maslenjak, 137 S. Ct. at 1929 (emphasis supplied).

It would

seem, then, that if a misstatement did not conceal an
immediately disqualifying fact, the government must prove that,
had the applicant been truthful, the government would have
undertaken further investigation and that investigation “would
predictably have disclosed” a disqualifying fact.

That language

is difficult to reconcile with the statement in Kungys, quoted
above, that “It has never been the test of materiality that the
misrepresentation or concealment would . . . . more likely than
not have triggered an investigation.”

Kungys, 485 U.S. at 771

(emphasis in original). 3

Nevertheless, while the precise impact of Maslenjak may be
somewhat unclear (say, in prosecutions under 18 U.S.C. § 1001),
this much can be said with relative confidence: in order to

3

The Court’s opinion in Kungys is, to be sure, “maddeningly
fractured.” United States v. Latchin, 554 F.3d 709, 713 (7th
Cir. 2009) (attempting to summarize the holding of the majority
of justices in Kungys). Maslenjak, then, should be read as
clarifying Kungys.

Appendix Page 9

Case 1:16-cv-00402-SM Document 28 Filed 10/10/19 Page 10 of 20

convict a defendant for violating 18 U.S.C. § 1425(a) by having
provided false statements, Maslenjak requires the jury to find a
direct causal connection between the defendant’s false
statement(s) and the awarding of his or her naturalization.

In

such prosecutions, a false statement that could have had “a
natural tendency to influence” the decisionmaker is not, it
would seem, sufficient.

Rather, the facts misrepresented by the

defendant either must have themselves been disqualifying, or the
government must demonstrate that, had the facts not been
misstated, reasonable officials would have undertaken further
investigation which, in turn, would “predictably have disclosed”
defendant’s ineligibility for citizenship.
Ct. at 1929.

Maslenjak, 137 S.

See also Id. at 1923.

III. The Jury Instructions at Issue.
In its instructions to Munyenyezi’s jury, the court
instructed that one of the essential elements of Court One,
which the government must prove beyond a reasonable doubt, is
that “the defendant knowingly and intentionally provided
materially false statements on her Application for
Naturalization, Form N-400.”

Jury Instructions, United States

v. Munyenyezi. No. 10-cr-85-SM (document no. 110), at 18.

With

regard to the “materiality” element, the court instructed the
jury as follows:

Appendix Page 10

Case 1:16-cv-00402-SM Document 28 Filed 10/10/19 Page 11 of 20

A statement is “material” if it has a natural tendency
to influence or to be capable of influencing the
decision of the decisionmaker to which it was
addressed. So, in this case, a false statement is
“material” if the statement would have warranted a
denial or citizenship, or the statement had a natural
tendency to influence, or was capable of influencing
the decision of a government agency in making a
determination required to be made.

Id. at 21.

While the highlighted portion of the instruction is

consistent with the Supreme Court’s then-controlling opinion in
Kungys, it arguably falls short of explaining to the jury the
more significant causality requirement imposed by Maslenjak.
The court therefore assumes, for purposes of resolving this
petition, that its “materiality” instruction to the jury was
deficient under Maslenjak’s requirements.

But, that does not end the inquiry.

That the jury was

erroneously instructed on the materiality element does not
automatically entitle Munyenyezi to the habeas relief she seeks.
If that error was “harmless” and Munyenyezi was not prejudiced,
her conviction under 18 U.S.C. § 1425(a) must stand.

IV.

The Erroneous Instruction on “Materiality” was Harmless.
First, and perhaps most fundamentally, the erroneous jury

instruction about which Munyenyezi complains was not a
“structural error” that would require automatic reversal of her

Appendix Page 11

Case 1:16-cv-00402-SM Document 28 Filed 10/10/19 Page 12 of 20

conviction.

That is, the error did not render her trial

“fundamentally unfair,” as the Supreme Court has defined that
phrase.

We have recognized that most constitutional errors can
be harmless. If the defendant had counsel and was
tried by an impartial adjudicator, there is a strong
presumption that any other constitutional errors that
may have occurred are subject to harmless-error
analysis. Indeed, we have found an error to be
“structural,” and thus subject to automatic reversal,
only in a very limited class of cases [listed examples
omitted].
The error at issue here - a jury instruction that
omits an element of the offense - differs markedly
from the constitutional violations we have found to
defy harmless-error review. Those cases, we have
explained, contain a defect affecting the framework
within which the trial proceeds, rather than simply an
error in the trial process itself. Such errors infect
the entire trial process, and necessarily render a
trial fundamentally unfair. Put another way, these
errors deprive defendants of basic protections without
which a criminal trial cannot reliably serve its
function as a vehicle for determination of guilt or
innocence and no criminal punishment may be regarded
as fundamentally fair.
Unlike such defects as the complete deprivation of
counsel or trial before a biased judge, an instruction
that omits an element of the offense does not
necessarily render a criminal trial fundamentally
unfair or an unreliable vehicle for determining guilt
or innocence.

Neder v. United States, 527 U.S. 1, 8-9 (1999) (punctuation and
citations omitted) (emphasis supplied).

Appendix Page 12

Case 1:16-cv-00402-SM Document 28 Filed 10/10/19 Page 13 of 20

The question presented, then, is whether the error at issue
requires correction.

It does not.

The lack of a complete

instruction on “materiality” consistent with the Court’s opinion
in Maslenjak was “harmless” insofar as it is clear “beyond a
reasonable doubt that the error complained of did not contribute
to the verdict obtained.”
24 (1967).

Chapman v. California, 386 U.S. 18,

See also Delaware v. Van Arsdall, 475 U.S. 673, 681

(1986) (“[A]n otherwise valid conviction should not be set aside
if the reviewing court may confidently say, on the record as a
whole, that the constitutional error was harmless beyond a
reasonable doubt.”).

Cf. Fry v. Pliler, 551 U.S. 112, 116

(2007) (holding that on collateral (habeas) review of a state
court conviction, the proper standard by which to assess
constitutional error is the more lenient one articulated in
Brecht v. Abrahamson, 507 U.S. 619 (1993) - that is, whether the
error “had substantial and injurious effect or influence in
determining the jury’s verdict” - and not Chapman’s more
demanding “harmless beyond a reasonable doubt” standard).

Count One of the indictment charged Munyenyezi with having
made at least five specific, material, false statements on her
Application for Naturalization, Form N-400.

And, the jury was

instructed that, before it could convict Munyenyezi of the crime
charged in Count One, each juror must agree that she made at

Appendix Page 13

Case 1:16-cv-00402-SM Document 28 Filed 10/10/19 Page 14 of 20

least one particular false statement.

“By that I mean the

following: it is not sufficient if you all agree that the
defendant made some false statement, but cannot agree on which
one.

Instead, before you may convict the defendant of the crime

charged in count one, you must all agree with regard to which
specific false statement(s) the government has proved beyond a
reasonable doubt.”

Jury Instructions (document no. 110) at 20.

The jury returned a general verdict.

Nevertheless, it is

undeniable that the jury unanimously concluded, beyond a
reasonable doubt, that Munyenyezi made at least one of the false
statements identified in the indictment - that is:

Question one: Munyenyezi lied when she denied
membership in, or association with, any association,
foundation, or party and failed to disclose her
membership in, or association with, the MRND and
Interahamwe;
Question two: Munyenyezi lied when she denied having
ever persecuted any person because of race, religion,
national origin, or membership in a particular group
and failed to disclose her direct and indirect
persecution of Tutsis during the Rwandan genocide;
Question three: Munyenyezi lied when she denied
having ever committed a crime and failed to disclose
her participation in genocide, murder, rape, and
kidnapping;
Question four: Munyenyezi lied when she denied having
ever given false or misleading information to any U.S.
official while applying for any immigration benefit
and failed to disclose her prior lies on, among other
documents, the Rwandan Questionnaire; and/or

Appendix Page 14

Case 1:16-cv-00402-SM Document 28 Filed 10/10/19 Page 15 of 20

Question five: Munyenyezi lied when she denied having
ever lied to any U.S. official to gain entry or
admission into the United States and failed to
disclose her prior lies on, among other documents, the
Rwandan Questionnaire.

Given the evidence introduced at trial, as well as the
findings the jury necessarily had to have made, it is plain that
the now incomplete instruction on “materiality” was harmless
beyond a reasonable doubt.

Had Munyenyezi answered either

question two or question three truthfully - that is, had she
acknowledged her persecution of Tutsis and/or revealed her role
in genocide, murder, rape, and kidnapping - she would have
immediately been deemed ineligible for naturalization.

See,

e.g., Testimony of Donald Heflin, Trial Transcript, Day 6
(document no. 285) at 14 (“The Immigration and Nationality Act
says you can’t come to the U.S. if you’ve committed a crime of
moral turpitude, section 212(a)(2).

Crimes of moral turpitude

include murder or aiding and abetting in murder.”).

See

generally Maslenjak, 137 S. Ct. at 1928-29 (“If the facts the
defendant misrepresented are themselves disqualifying, the jury
can make quick work of that inquiry.

In such a case, there is

an obvious causal link between the defendant’s lie and her
procurement of citizenship. . . . In short, when the defendant
misrepresents facts that the law deems incompatible with

Appendix Page 15

Case 1:16-cv-00402-SM Document 28 Filed 10/10/19 Page 16 of 20

citizenship, her lie must have played a role in her
naturalization.”).

Alternatively, if Munyenyezi had answered questions one,
four, and/or five truthfully and disclosed her association with
the MRND and Interahamwe, as well as her earlier lies on, among
other forms, the Rwandan Questionnaire, the government would
have, without a doubt, undertaken further investigation that
“would predictably have disclosed some legal disqualification,”
Maslenjak, 137 S. Ct. at 1929 - that is, Munyenyezi’s
participation in the genocide, her role in the MRND and the
operation of the roadblock, and her role in the persecution,
rape, and execution of Tutsis.

See, e.g., Testimony of Donald

Monica, Trial Transcript, Day 4 (document no. 301) at 13-14
(stating that if Munyenyezi had disclosed her membership in the
MRND, he would have investigated that matter further); Testimony
of Maurice Violo, Trial Transcript, Day 7 (document no. 292) at
57-59, 90 (testifying that if Munyenyezi had disclosed her
membership in the MRND, “we would investigate exactly what that
was and what her involvement in that organization was.”);
Testimony of Donald Heflin, Trial Transcript, Day 6 (document
no. 285) at 30 (describing membership in the MRND and
Interahamwe as a “red flag” that would have resulted in either
immediate disqualification or, at a minimum, further

Appendix Page 16

Case 1:16-cv-00402-SM Document 28 Filed 10/10/19 Page 17 of 20

investigation into her role in the organization).

See also Id.

at 13 (noting that if a response prompted a yellow or red flag,
“We would go back out and ask that more questions be asked, and
in some cases we just simply wouldn’t be able to issue the visa
or the refugee travel documents.

The burden is really on the

applicant for a visa or refugee status in these cases.
plenty of people who want to come to the U.S.

We have

We can just skip

over people that have these kind of problems and take the next
person in line.”).

In short, then, even assuming the court’s instruction on
“materiality” fell short of explaining the heightened causality
requirements recognized in Maslenjak, that error was, under the
circumstances, harmless beyond a reasonable doubt.

Had

Munyenyezi truthfully answered any one of the five questions
identified in the indictment, her application for naturalization
would have been immediately denied or, at a minimum, further
investigation into the nature of Munyenyezi’s conduct during the
genocide would have been conducted.

Such an investigation would

have inevitably led to the discovery of what the evidence
overwhelmingly established - that Munyenyezi actively
participated with the MRND and Interahamwe in perpetrating
murder, rape, and kidnapping, as part of the Rwandan genocide.

Appendix Page 17

Case 1:16-cv-00402-SM Document 28 Filed 10/10/19 Page 18 of 20

Finally, the court notes that Munyenyezi did not contest
making the (false) statements to immigration authorities, nor
did she claim that those statements were immaterial to her
eligibility for naturalization.

Rather, she asserted that the

witnesses against her were either lying or had mistaken her for
some other (unidentified) woman who dressed in MRND attire,
operated the roadblock outside of Munyenyezi’s home, and
participated in the genocide.
claims.

Plainly, the jury rejected those

Consequently, the omitted element - a proper

instruction on the materiality of the false statements charged pertained to a matter that was both uncontested and established
by proof beyond a reasonable doubt.

See generally Neder, 527

U.S. at 17 (“In this situation, where a reviewing court
concludes beyond a reasonable doubt that the omitted element was
uncontested and supported by overwhelming evidence, such that
the jury verdict would have been the same absent the error, the
erroneous instruction is properly found to be harmless.”)
(emphasis supplied); Johnson v. United States, 520 U.S. 461, 470
(1997) (noting that “evidence supporting materiality was
overwhelming [and] materiality was essentially uncontroverted at
trial,” and stating that “On this record there is no basis for
concluding that the error [failing to instruct the jury on
“materiality”] seriously affected the fairness, integrity or
public reputation of judicial proceedings.

Appendix Page 18

Indeed, it would be

Case 1:16-cv-00402-SM Document 28 Filed 10/10/19 Page 19 of 20

the reversal of a conviction such as this which would have that
effect.

Reversal for error, regardless of its effect on the

judgment, encourages litigants to abuse the judicial process and
bestirs the public to ridicule it.”) (citations and internal
punctuation omitted).

Because the court concludes that Munyenyezi’s claim fails
on the merits, it need not address the government’s alternative
arguments concerning procedural default and the (generally
disfavored) concurrent sentence doctrine.

Conclusion
Petitioner’s Motion to Vacate Sentence under 28 U.S.C. §
2255 (document no. 1, as amended by document no. 11) is denied.

The Clerk of Court shall enter judgment in accordance
with this order and close the case.

Rule 11 Certificate
As the interplay between Kungys and Maslenjak is
undeveloped, and resolution of this petition turns on both
a construction and application of Maslenjak’s causation
rules as they inform “materiality,” as well as an
assessment of the weight of the evidence of guilt presented

Appendix Page 19

Case 1:16-cv-00402-SM Document 28 Filed 10/10/19 Page 20 of 20

at trial, I find that those issues arguably satisfy the
petitioner’s burden to make a substantial showing of the
denial of a constitutional right (28 U.S.C. § 2253(c)(2)),
and so warrant the issuance of a certificate of
appealability with respect to those issues.

See Rule 11,

Rules Governing Section 2255 Proceedings.

SO ORDERED.

____________________________
Steven J. McAuliffe
United States District Judge
October 10, 2019
cc:

Richard Guerriero, Esq.
John A. Capin, AUSA
Mark Quinlivan, AUSA

Appendix Page 20

Case: 19-2041

Document: 00117713277

Page: 1

Date Filed: 03/03/2021

Entry ID: 6406006

United States Court of Appeals
For the First Circuit
No. 19-2041
BEATRICE MUNYENYEZI,
Petitioner, Appellant,
v.
UNITED STATES OF AMERICA,
Respondent, Appellee.
APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW HAMPSHIRE
[Hon. Steven J. McAuliffe, U.S. District Judge]
Before
Thompson and Kayatta,
Circuit Judges.
Richard Guerriero, with whom Lothstein Guerriero, PLLC, was
on brief, for petitioner.
Mark T. Quinlivan, Special Assistant United States Attorney,
with whom Scott W. Murray, United States Attorney, District of New
Hampshire, and Andrew E. Lelling, United States Attorney, District
of Massachusetts, were on brief, for respondent.



Judge Torruella heard oral argument in this matter and
participated in the semble, but he did not participate in the
issuance of the panel's opinion in this case. The remaining two
panelists therefore issued the opinion pursuant to 28 U.S.C.
§ 46(d).

Appendix Page 21

Case: 19-2041

Document: 00117713277

Page: 2

Date Filed: 03/03/2021

March 3, 2021

Appendix Page 22

Entry ID: 6406006

Case: 19-2041

Document: 00117713277

Page: 3

KAYATTA, Circuit Judge.
was

convicted

of

procuring

Date Filed: 03/03/2021

Entry ID: 6406006

Petitioner Beatrice Munyenyezi

naturalization

based

on

false

statements to immigration officials about her conduct during the
Rwandan

genocide,

see

18

U.S.C.

§ 1425(a),

and

of

procuring

naturalization as an ineligible person, see id. § 1425(b).
years ago, we affirmed her conviction and sentence.
v. Munyenyezi, 781 F.3d 532 (1st Cir. 2015).

Six

United States

Two years later, in

Maslenjak v. United States, 137 S. Ct. 1918 (2017), the Supreme
Court described the role that a falsehood need play in acquiring
citizenship to prove a violation of section 1425(a).

Pointing to

differences between that description and the instructions given to
the jury in her case, Munyenyezi seeks vacatur of her conviction
through a petition
§ 2255(a).

for habeas corpus relief under 28 U.S.C.

Because Munyenyezi was not actually prejudiced by the

instructions as given, we affirm the district court's denial of
Munyenyezi's petition.

Our reasoning follows.
I.

A detailed discussion of the background of this case,
including Munyenyezi's trial, appears in our above-cited opinion
affirming Munyenyezi's conviction and sentence on direct appeal.
We summarize that background briefly to provide relevant context
for our discussion in this post-conviction litigation.
This case arises out of the 1994 Rwandan genocide, during
which members of Rwanda's majority ethnic group, the Hutus, killed

- 3 Appendix Page 23

Case: 19-2041

Document: 00117713277

Page: 4

Date Filed: 03/03/2021

Entry ID: 6406006

more than 700,000 Rwandans, mostly Tutsis, a minority ethnic group.
The killing occurred at the behest of Rwanda's ruling party, the
Hutu-dominated National Republican Movement for Democracy and
Development

("MRND").

The

MRND,

led

by

President

Juvénal

Habyarimana, rose to power in 1973. President Habyarimana remained
in office until his assassination on April 6, 1994, an event that
brought Rwanda's long-running ethnic tensions to a head.

MRND

leaders seized on the president's death as an opportunity to demand
violence against Tutsis.

Members of the military, police, and the

Interahamwe, the MRND's youth militia, responded by carrying out
mass

killings.

Across

Rwanda,

local

militias

constructed

roadblocks where they checked passing Rwandans' identification
cards to determine their ethnicity.

The militias detained Tutsis

and then abused, tortured, and killed them.

The campaign to

eliminate Tutsis continued until July 1994.
On April 19, 1994, a speech by Rwanda's new president to
officials of the southern Rwandan city of Butare

prompted

a

systematic effort to hunt Tutsis in Butare using patrols and
roadblocks.

One of those deadly roadblocks was on Butare's main

road in front of the Hotel Ihuriro.
The Hotel Ihuriro was home during the genocide for
Petitioner
child.

Beatrice

Munyenyezi,

her

husband,

and

their

young

Several facts about the occupants of the Hotel Ihuriro are

uncontested:

Munyenyezi's husband, Shalom Ntahobali, was the son

- 4 Appendix Page 24

Case: 19-2041

Document: 00117713277

of the hotel's owners.

Page: 5

Date Filed: 03/03/2021

Entry ID: 6406006

Shalom's mother, Pauline Nyiramasuhuko,

was an MRND cabinet minister.

His father, Maurice Ntahobali, was

a former politician and the head of the National University in
Butare.

Shalom himself led Butare's Interahamwe militia, which

supervised the roadblock in front of the Hotel Ihuriro, and he
developed a reputation as a brutal murderer.
The

dispute

between

the

government

and

Munyenyezi

centers on what Munyenyezi herself did during the genocide and
whether

she

officials.

honestly

described

those

actions

to

immigration

Between 1995 and 2003, Munyenyezi successively and

successfully sought status as a refugee, which required a special
"Visa 6" security clearance; as a lawful permanent resident; and
then as a naturalized citizen of the United States.

During this

lengthy march to citizenship, she submitted to formal interviews
and completed various application forms, including a questionnaire
specifically tailored for applicants who had been in Rwanda since
April 1, 1994 ("the Rwandan Questionnaire") and an application for
naturalization known as Form N-400.
Several years after her naturalization, Munyenyezi drew
the attention of United States officials when she testified on her
husband's behalf at an international criminal court, claiming that
there was no roadblock near her family's hotel and that her husband
was not involved in the genocide.

Munyenyezi, 781 F.3d at 536.

- 5 Appendix Page 25

Case: 19-2041

Document: 00117713277

Page: 6

Date Filed: 03/03/2021

Entry ID: 6406006

After an investigation, the government concluded that Munyenyezi
made the following five false statements on her Form N-400:
One, in response to a question on her
Form N-400 that asks, ["]have you ever . . .
been a member of or associated with any
organization, association, fund, foundation,
party, club, society, or similar group in the
United States or in any other place,["] . . .
[Munyenyezi] did not disclose her membership
in and association with the MRND and
Interahamwe, and she responded by putting an
"X" in the box marked ["]no[."]
Two, in response to a question on her N-400
that asked, ["]have you ever persecuted,
either directly or indirectly, any person
because of race, religion, national origin,
membership in a particular social group or
political
opinion,["] . . .
[Munyenyezi]
responded by putting an "X" in the box marked
"no" and failed to disclose her direct and
indirect persecution of Tutsis during the
Rwandan genocide.
Three, in response to a question on her N-400
that asked, ["]have you ever committed a crime
or
offense
for
which
you
were
not
arrested,["] . . . [Munyenyezi] failed to
disclose her participation in genocide,
murder, rape, kidnapping, and theft, and
responded by putting an "X" in the box marked
"no."
The government also alleges that
[Munyenyezi] failed to disclose that she had
previously violated United States criminal
laws by providing false information in
immigration interviews and documents, that is,
the Form I-590, Form G-646, the Rwandan
questionnaire, and Form I-485.
Four, in response to a question on her Form N400 that asked, ["]have you ever given false
or misleading information to any U.S. official
while applying for any immigration benefit or
to
prevent
deportation,
exclusion,
or
removal,["] . . . [Munyenyezi] responded by

- 6 Appendix Page 26

Case: 19-2041

Document: 00117713277

Page: 7

Date Filed: 03/03/2021

Entry ID: 6406006

putting an "X" in the box marked "no" and
failed to disclose false information she
provided in previous [i]mmigration documents,
that is, the Form I-590, Form G-646, the
Rwandan questionnaire, and Form I-485.
Five, in response to a question on her N-400
that asked, ["]have you ever lied to any U.S.
Government official to gain entry or admission
into the United States,["] . . . [Munyenyezi]
responded by putting an "X" in the box marked
"no" and failed to disclose the false
information she provided on the Form I-590,
Form G-646, and the Rwandan questionnaire.
A federal grand jury indicted Munyenyezi.

In count one,

the government alleged that Munyenyezi violated section 1425(a)
when

she

"knowingly

procure[d] . . .

her

own

naturalization

contrary to law . . . by knowingly providing false and fraudulent
information as to material facts in her . . . Form N-400."
U.S.C. § 1425(a).

See 18

In count two, the government alleged that

Munyenyezi was "not entitled" to naturalization because -- among
other reasons -- she gave materially false information during the
immigration

process

and

that

she

violated

section 1425(b)

by

nevertheless "knowingly procur[ing] . . . [her] naturalization."
See id. § 1425(b).
The first jury to consider the evidence deadlocked,
necessitating a mistrial.

Munyenyezi's retrial ended in her

conviction on both counts.
Numerous

Rwandan

government's case-in-chief.

witnesses

testified

during

the

At least four eyewitnesses testified

- 7 Appendix Page 27

Case: 19-2041

Document: 00117713277

Page: 8

Date Filed: 03/03/2021

Entry ID: 6406006

that they saw Munyenyezi decked out in the MRND's distinctively
colored clothing, checking IDs and culling out Tutsis at the
roadblock. Munyenyezi, 781 F.3d at 537. One of those eyewitnesses
reported that Munyenyezi gave orders to have several Tutsis killed.
Id.
Several
statements

immigration

disclosing

Munyenyezi's

various

officials

this

testified

activity

applications

in

would

her

about

have

pursuit

how

affected

of

eventual

naturalization.

That testimony established that naturalization

would

have

probably

participating

in

been

denied

persecution,

to

if

she

had

committing

a

admitted

crime

to

such

as

kidnapping for which she had not been arrested, or to helping the
Interahamwe
Government

check

identification

witnesses

also

cards

explained

how

at

the

roadblock.

knowledge

of

MRND

membership would have cast serious doubt on her receipt of a Visa 6
security clearance and would have at least led to much more inquiry
that may well have resulted in a denial of her applications.
Following closing arguments, the trial judge instructed
the jury that the "government must prove each of the following
essential elements beyond a reasonable doubt" to establish a
violation of section 1425(a):

"First, that the defendant procured

or attempted to procure United States citizenship.

And second,

that it was contrary to the law for the defendant to procure such
citizenship.

And

third,

that

the

- 8 Appendix Page 28

defendant

knowingly

and

Case: 19-2041

Document: 00117713277

intentionally

provided

Page: 9

materially

Date Filed: 03/03/2021

false

statements

Entry ID: 6406006

on

her

Application for Naturalization, Form N-400."
The judge next explained that "[t]he government alleges
that the defendant procured United States citizenship [']contrary
to law['] because it claims she violated federal law which makes
it unlawful to give false material statements in connection with
procuring or attempting to procure immigration and naturalization
benefits."
The judge then explained to the jury that to find that
Munyenyezi violated section 1425(a), it had to "agree with regard
to which specific false statement or statements the government has
proved beyond a reasonable doubt" out of the five statements listed
above.

And to find that the government proved the falsity of

statements four and five, the judge instructed that the jury had
to "agree as to at least one prior material false statement."

On

appeal, both parties presume that the phrase "prior material false
statement" refers only to a false statement about the conduct
covered by statements one, two, or three.
The

trial judge

told the jury

that a statement is

"material" if
it has a natural tendency to influence or to
be capable of influencing the decision of the
decisionmaker to which it was addressed. So,
in this case, a statement is "material" if the
statement had a natural tendency to influence,
or was capable of influencing, the decision of
a government agency in making a determination

- 9 Appendix Page 29

Case: 19-2041

Document: 00117713277

Page: 10

Date Filed: 03/03/2021

Entry ID: 6406006

required to be made. The government need not
show that the agency was actually influenced
by the statement involved.
If a statement
could have provoked governmental action, it is
material regardless of whether the agency
actually relied upon it.
After this court affirmed Munyenyezi's conviction and
sentence, she filed a timely habeas petition pursuant to 28 U.S.C.
§ 2255(a) seeking relief on several grounds.

Her petition was

pending when the Supreme Court held in Maslenjak v. United States,
137 S. Ct. 1918 (2017), that the government must show "that an
illegality played some role in [the] acquisition" of citizenship
to prove a violation of section 1425(a).

Id. at 1925.

With the

district court's permission, Munyenyezi added a claim to her
section 2255

petition

challenging

the

materiality

instruction

based on Maslenjak.
The district court rejected the claims raised in her
initial section 2255 petition but did not address her Maslenjak
claim.

Munyenyezi obtained a certificate of appealability from

this court as to the Maslenjak claim alone.

After we remanded to

allow

claim

the

instance,

district
the

court

district

to

address

court

denied

the

in

Munyenyezi's

the

first

petition,

reasoning that any error in the jury instructions was harmless
beyond a reasonable doubt.

Munyenyezi then filed this timely

appeal.

- 10 Appendix Page 30

Case: 19-2041

Document: 00117713277

Page: 11

Date Filed: 03/03/2021

Entry ID: 6406006

II.
To prevail on the claim for relief under 28 U.S.C.
§ 2255(a), Munyenyezi need show that her sentence "was imposed in
violation of the Constitution or laws of the United States" or "is
otherwise subject to collateral attack."

28 U.S.C. § 2255(a).

Munyenyezi did not raise at trial the argument now advanced in her
post-conviction request for relief.

So, to rule in her favor, we

would need to find not only that there was error in her trial, but
also that there was "cause" not to have objected to the error and
that "'actual prejudice' result[ed] from the error[]."
States v. Frady, 456 U.S. 152, 167–68 (1982).

United

As did the district

court, we put to one side the "cause" requirement -- and the
government's arguments on that issue and others -- to go right to
the question of whether, assuming error, there was actual prejudice
as a result of that error.
To ascertain prejudice, we first examine the precise
nature

of

Munyenyezi

the

error

directs

said

our

to

have

attention

caused
to

the

actual
jury

prejudice.
instruction

concerning the required relationship between a lie and the grant
of citizenship.

Drawing on the notion of materiality, the trial

judge told the jurors that, in order to support a conviction, a
false statement must have "a natural tendency to influence, or
[be] capable of influencing, the decision" of an immigration
officer.

The judge further explained that it is enough if the

- 11 Appendix Page 31

Case: 19-2041

Document: 00117713277

Page: 12

Date Filed: 03/03/2021

Entry ID: 6406006

statement "could have provoked governmental action"; it need not
have "actually" done so.
Munyenyezi

argues

that

that

instruction

was

error

because it did not comport with what the Supreme Court subsequently
required

in

Maslenjak

to

show

that

a

defendant

"knowingly

procure[d] . . . , contrary to law, the naturalization of any
person."

18 U.S.C. § 1425(a).

In Maslenjak, the trial court

instructed the jury that it could convict based on a finding that
the defendant lied in procuring naturalization even if the lie was
not "material" and "did not influence the decision to approve [her]
naturalization."

137 S. Ct. at 1924 (alteration in original).

After the Sixth Circuit affirmed the conviction, see United States
v. Maslenjak, 821 F.3d 675 (6th Cir. 2016), the Supreme Court
granted certiorari.
finding

the

It then vacated the Sixth Circuit's decision,

instruction

requirement improper.

dispensing

with

any

materiality

Maslenjak, 137 S. Ct. at 1924.

In so

finding, the Supreme Court established what at first blush may
seem

like

a

causation-in-fact

requirement

regarding

relationship between an illegal act and naturalization.

the

The Court

several times explained that an illegality must have "played some
role in" the acquisition of naturalization, id. at 1923, 1925,
1927; that it "must have somehow contributed to the obtaining of
citizenship," id. at 1925; and that "a jury must decide . . .
whether a false statement sufficiently altered [the immigration]

- 12 Appendix Page 32

Case: 19-2041

Document: 00117713277

Page: 13

Date Filed: 03/03/2021

Entry ID: 6406006

processes as to have influenced an award of citizenship," id. at
1928.
When homing in on section 1425(a)'s application to lies
to government officials, however, the Court made clear that the
government need not prove that a lie did in fact cause, contribute
to, or influence the award of citizenship.

Rather, retreating

from notions of causation-in-fact, the Court explained that jurors
need not focus on the actual decisionmaker in the immigration
proceeding at issue.

Indeed, "the question of what any individual

decisionmaker might have done with accurate information is beside
the point."

Id.

Instead, "the proper causal inquiry under

§ 1425(a) is framed in objective terms:

To decide whether a

defendant acquired citizenship by means of a lie, a jury must
evaluate how knowledge of the real facts would have affected a
reasonable government official properly applying naturalization
law."
whether

Id.
a

And in making those decisions, the jury can consider
truthful

response

"would

have

prompted

reasonable

officials . . . to undertake further investigation" that "'would
predictably have disclosed' some legal disqualification."

Id. at

1929 (quoting Kungys v. United States, 485 U.S. 759, 774 (1988)).
The difference between what Maslenjak requires and the
instruction given in this case is subtle but substantive.

Reduced

to its nub, Maslenjak requires proof that the truth would have
predictably led a reasonable official to deny the application,

- 13 Appendix Page 33

Case: 19-2041

Document: 00117713277

Page: 14

Date Filed: 03/03/2021

Entry ID: 6406006

while the instruction here required that the government prove that
the truth could have had such an effect.
We will assume that this difference means the given
instruction was erroneous. As we have stated, we are also assuming
without deciding that there was due "cause" not to have challenged
the instruction at trial.

So the pivotal question is whether the

error resulted in "actual prejudice."

Brecht v. Abrahamson, 507

U.S. 619, 637 (1993) (quoting United States v. Lane, 474 U.S. 438,
449 (1986)).
Courts have tinkered with the words used to describe
exactly how one must ascertain "actual prejudice."
to the formulation set forth in
decision in Kotteakos:

Brecht pointed

the Supreme Court's earlier

"whether the error 'had substantial and

injurious effect or influence in determining the jury's verdict.'"
Brecht, 507 U.S. at 637 (quoting Kotteakos v. United States, 328
U.S. 750, 776 (1946)).

Kotteakos itself also stated that an error

can be overlooked as not causing actual prejudice if the reviewing
court "is sure that the error did not influence the jury, or had
but very slight effect."

Kotteakos, 328 U.S. at 764.

Our circuit

in 1994 reasoned that under Brecht no actual prejudice is shown
"if it is 'highly probable' that the challenged action did not
affect the judgment."

Singleton v. United States, 26 F.3d 233,

237 (1st Cir. 1994) (quoting United States v. Wood, 924 F.2d 388,
402 (1st Cir. 1991)) (applying Brecht to a section 2255 petition).

- 14 Appendix Page 34

Case: 19-2041

Document: 00117713277

Page: 15

Date Filed: 03/03/2021

Entry ID: 6406006

A year later, the Supreme Court spoke of not having "grave doubt"
because one is convinced beyond "equipoise" that the error had not
"substantially

influenced

the

jury's

McAninch, 513 U.S. 432, 435–36 (1995).

decision."

O'Neal

v.

And while we thereafter

continued to apply the Singleton formulation, see, e.g., SustacheRivera v. United States, 221 F.3d 8, 18 (1st Cir. 2000),1 the
Supreme

Court

has

more

recently

pointed

us

towards

O'Neal's

formulation of the pertinent inquiry, see Davis v. Ayala, 576 U.S.
257, 268, 276 (2015).

That inquiry as formulated in O'Neal begins

by asking, "Do I, the judge, think that the error substantially
influenced the jury's decision?"

513 U.S. at 436.

If the answer

to that question is "yes," or if we are in "equipoise as to" the
answer, then the error is not harmless.

Id. at 435.2

With this inquiry in mind, we turn to Munyenyezi's
argument that there is much reason to think that the "could have
caused"

(rather

than

"would

have

caused")

substantially influenced the jury's decision.

instruction

Munyenyezi contends

that we must consider this harmless error argument de novo in
reviewing the district court's denial of her habeas challenge to

1

The government asks us to do so again here.

We reject Munyenyezi's argument that we should apply a
"beyond a reasonable doubt" test for harmlessness, as we might
were this a review of a preserved claim of error on direct review.
See Chapman v. California, 386 U.S. 18, 24 (1967); see also United
States v. Maslenjak, 943 F.3d 782, 787 (6th Cir. 2019).
2

- 15 Appendix Page 35

Case: 19-2041

Document: 00117713277

Page: 16

Date Filed: 03/03/2021

Entry ID: 6406006

her federal conviction, citing Pettiway v. Vose, 100 F.3d 198, 200
(1st Cir. 1996) ("Our review of a harmless error determination on
habeas corpus review is de novo.").

The government offers no

objection or argument to the contrary, so we shall proceed with de
novo review.
Munyenyezi begins her argument by pointing out that the
jury's general verdict did not specify which of the challenged
statements it found to be false.

Building on this ambiguity,

Munyenyezi constructs a two-part, "but-for" scenario that would
warrant habeas relief.

First, she describes the jury's verdict as

likely resting on a finding that Munyenyezi's only false statement
was her denial of MRND membership.

In so arguing, she implicitly

acknowledges that statements two3 and three,4 and part of one,5 if
false, would have obviously concealed information that would have
led

to

the

denial

of

naturalization process.

her

various

applications

during

the

And she presumes, as does the government,

In her second statement, Munyenyezi denied that she had
"ever persecuted, either directly or indirectly, any person."
3

In her third statement, Munyenyezi denied that she had
"ever committed a crime or offense for which [she was] not
arrested."
4

By swearing that she had never "been a member of or
associated with any organization, association, fund, foundation,
party, club, society or similar group," Munyenyezi not only denied
MRND membership but also Interahamwe membership in her first
statement.
5

- 16 Appendix Page 36

Case: 19-2041

Document: 00117713277

Page: 17

Date Filed: 03/03/2021

Entry ID: 6406006

that statements four6 and five7 could only be found to be false
based on a prior material false statement about activity addressed
in statements one, two, or three.

Second, she predicts that a

differently instructed jury would have found that a lie limited to
denying MRND membership would not have played a role in her
successful

pursuit

of

naturalization;

i.e.,

learning

of

MRND

membership would not have caused reasonable officials to deny her
application or to undertake an investigation that predictably
would have led to its denial.
description

of

the

likely

Because we find unconvincing her
basis

for

the

guilty

verdict,

Munyenyezi's argument fails at the first step.
Munyenyezi's description of the likely basis of the
jury's actual verdict cannot be squared with the trial record,
which reflects that the contest of proof and argument trained
overwhelmingly

on

two

diametrically

opposed,

versions of Munyenyezi's conduct in Rwanda.

all-or-nothing

The government's

witnesses testified that Munyenyezi was virtually all-in on the
genocide:

She joined the MRND, wore its clothing, joined the

Interahamwe, and actually checked identity cards at the roadblock

In her fourth statement, Munyenyezi denied that she had
"ever given false or misleading information to any U.S. official
while applying for any immigration benefit or to prevent
deportation, exclusion, or removal."
6

In her fifth statement, Munyenyezi denied that she had
"ever lied to any U.S. Government official to gain entry or
admission into the United States."
7

- 17 Appendix Page 37

Case: 19-2041

Document: 00117713277

Page: 18

Date Filed: 03/03/2021

Entry ID: 6406006

to find Tutsi victims to be separated out for murder. Munyenyezi's
defense was an across-the-board denial and a claim that those
witnesses were lying.
Rwandan

witnesses

She put on expert testimony suggesting that

tend

to

adhere

promoted by their government.

to

an

"official

narrative"

Munyenyezi also called several

witnesses who spent time at the Hotel Ihuriro during the genocide.
According to them, Munyenyezi was always in the hotel caring for
her young child, and she wore loose-fitting maternity clothes, not
military fatigues or MRND clothing, because she was pregnant with
twins who were born on November 20, 1994 (more than seven months
after the genocide began).
The closing arguments reflect the all-or-nothing nature
of the case as presented to the jury.

According to Munyenyezi's

counsel, the Rwandan genocide was an event "in which she had
absolutely no part."

Moreover, Munyenyezi's counsel insisted that

"[s]he wasn't a member of the MRND" and that the witnesses who
said otherwise were "just wrong" and were "not telling the truth."
The government, in turn, stressed that Munyenyezi lied about
essentially everything to cover up her past.

The all-or-nothing

approach by both sides was virtually compelled by the nature of
the

evidence,

concluding

which

that

the

presented

no

government

readily
witnesses

everything except MRND membership.

- 18 Appendix Page 38

apparent
were

means

lying

for

about

Case: 19-2041

Document: 00117713277

Munyenyezi

Page: 19

nevertheless

Date Filed: 03/03/2021

points

to

the

Entry ID: 6406006

government's

statement in its closing argument that if "she told a single lie,"
she was guilty, and that "at a minimum she associated with the
MRND."

This was an invitation to the jurors, claims Munyenyezi,

to find against her only on her denial of MRND membership and a
recognition by the government that its proof was not as strong on
the other issues.

But in arguing that that lie was enough to

convict, the government never suggested that there was any path in
the record to find that that statement was false and the others
true.

And even if the government's strongest claim was that

Munyenyezi lied about MRND membership, the fact remains that the
evidence pointing to across-the-board lying was strong unless one
labeled the government's witnesses as liars and Munyenyezi and her
witnesses as honest.
The

district

court

characterized

the

record

at

the

second trial as "overwhelmingly establish[ing]" her participation
in murder.

And on her direct appeal we described the record as

presenting a "vast and damning array of evidence against her."
Munyenyezi, 781 F.3d at 540 (holding that any error in admitting
into evidence Munyenyezi's international criminal court testimony
was harmless).

On such a record, it is quite a stretch to think

that the jury found that she and her witnesses at trial lied only
by

falsely

denying

her

MRND

membership

yet

told

the

truth

otherwise. The jury more likely viewed a lie about MRND membership

- 19 Appendix Page 39

Case: 19-2041

Document: 00117713277

Page: 20

Date Filed: 03/03/2021

as the thirteenth stroke of Thomas Hardy's crazy clock:

Entry ID: 6406006

"It was

not only received with utter incredulity as regarded itself, but
threw a doubt on all assurances that had preceded it."

Thomas

Hardy, Far From the Madding Crowd 209–10 (First Vintage Classics
ed. 2015).8 For these reasons, we reject as implausible the premise
that Munyenyezi's conviction turned on a finding that she lied
only about her MRND membership.

And with that premise rejected,

and causation inexorable as to the other alleged lies, we find
ourselves far past equipoise in answering "no" to the question of
whether

the

assumed

Maslenjak

error

in

substantially influenced the jury's decision.

the

instruction

See O'Neal, 513

U.S. at 435–36.9
III.
For the foregoing reasons, we affirm the denial of
Munyenyezi's petition for a writ of habeas corpus.

With thanks to Dwight H. Sullivan & Eugene R. Fidell,
Winding (Back) the Crazy Clock, 19 Green Bag 2d 397, 401 (2016).
8

Because we agree with the government that Munyenyezi has
failed to show actual prejudice, we decline to address the
government's alternative argument that the concurrent sentence
doctrine bars habeas relief here.
9

- 20 Appendix Page 40

